 Memorandum No. D-2010-RAM-023 September 30, 2010




U.S. Army Corps of Engineers, Civil Works, Memphis
  District, Has Improved Its Compliance With the
     American Recovery and Reinvestment Act
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAC                           Federal Acquisition Circular
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
HQ                            Headquarters
MR&T                          Mississippi River and Tributaries
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
USACE                         U.S. Army Corps of Engineers
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                            AR LI NGTON , VIRGIN IA 22202-4704

                                                                      September 30,2010

MEMORANDUM FOR COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS
              COMMANDER, U.S. ARMY CORPS OF ENGINEERS,
                 MEMPHIS DISTRICT

SUBJECT: U.S. Army Corps of Engineers, Civil Works, Memphis District, Has
         Improved Its Compliance With the American Recovery and Reinvestment
         Act (Memorandum No. D-2010-RAM-023)

This memorandum provides results from our audit of selected American Recovery and
Reinvestment Act projects at the U.S. Army Corps of Engineers, Civil Works, Memphis
District (US ACE Memphis). Overall, USACE Memphis persOlmel complied with many
of the Recovery Act requirements and took action to address the weaknesses that we
found .

We performed this audit in response to the requirements of Public Law 111-5, "American
Recovery and Reinvestment Act of2009," February 17,2009. We made no
recommendations and do not require a written response. Therefore, we are publishing tlus
memorandum in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                      Patricia A. Marsh, CPA
                                      Assistant Inspector General
                                      Defense Business Operations
Memorandum No. D-2010-RAM-023 (PN D2009-D000FH-0182.009) September 30, 2010


                 Results in Brief: U.S. Army Corps of Engineers,
                 Civil Works, Memphis District, Has Improved Its
                 Compliance With the American Recovery and
                 Reinvestment Act
                                                       These deficiencies occurred because USACE
What We Did                                            Memphis personnel were not aware of certain
Our overall objective was to determine whether         Recovery Act transparency requirements and
the U.S. Army Corps of Engineers, Civil Works,         contract requirements. In addition, USACE
Memphis District (USACE Memphis),                      Memphis personnel mistakenly overlooked
appropriately planned and implemented projects         implementing guidance for including all
under the American Recovery and Reinvestment           required Recovery Act FAR clauses. As a
Act of 2009. Specifically, we reviewed the             result, USACE Memphis personnel did not fully
planning, funding, project execution, and              meet the transparency or solicitation and
tracking and reporting of two Recovery Act             contract preparation requirements of the
projects at USACE Memphis to determine                 Recovery Act.
whether its efforts complied with Recovery Act
requirements, Office of Management and                 During the audit, USACE Memphis personnel
Budget guidance, and the Federal Acquisition           took corrective action on all the deficiencies
Regulation (FAR). We determined that USACE             identified in the project execution and tracking
Memphis complied with many of the Recovery             and reporting areas.
Act requirements and took action to address the
weaknesses that we found.                              What We Recommend
                                                       This memorandum contains no
What We Found                                          recommendations.
USACE Memphis personnel complied with the
planning and funding requirements for the two          Management Comments
Recovery Act projects we audited. USACE                We provided our discussion draft memorandum
Memphis personnel also complied with some              to USACE on August 12, 2010. USACE
project execution requirements. However, in            Memphis personnel provided technical
some instances, they did not report all required       comments, which we incorporated into the final
information on the Federal Business                    memorandum as appropriate.
Opportunities Web site or include all required
contract language and clauses in the contract.

In addition, USACE Memphis personnel
substantially complied with the tracking and
reporting requirements. However, they did not
ensure that the Arkansas State Highway and
Transportation Department personnel followed
the reporting requirements for the cooperative
agreement funded by the Recovery Act.
Further, USACE Memphis personnel incorrectly
reported a project description on the USACE
Headquarters Web site.
                                                   i
Table of Contents

Introduction                                                             1

      Audit Objective                                                    1
      Recovery Act Background                                            1
      Recovery Act Requirements                                          1
      Recovery Act Contracting Requirements                              2
      OMB Recovery Act Guidance                                          2
      USACE Recovery Act-Funded Appropriations                           2
      USACE Mission and Functions                                        3
      Selected Projects at USACE Memphis                                 3
      USACE Memphis Has Improved Internal Controls                       4

USACE Memphis Generally Met the Implementation Requirements
  of the Recovery Act but Some Improvement Was Needed                    6

      USACE Memphis Personnel Properly Planned Their
           Recovery Act Projects                                         6
      USACE Memphis Personnel Appropriately Distributed and Designated
          Recovery Act Funds                                             7
      USACE Memphis Personnel Met Some Project Execution Requirements
          and Made Needed Improvements                                   7
      USACE Memphis Personnel Met Some Tracking and Reporting
          Requirements and Made Needed Improvements                      9

Appendices

      A. Scope and Methodology                                           11
            Selected Projects at USACE Memphis                           12
            Use of Computer-Processed Data                               12
            Prior Audit Coverage                                         12
      B. Recovery Act Criteria and Guidance                              13
      C. Results of Our Tests of Project Execution                       15
      D. Our Review of Inclusion of FAR Clauses                          16
Introduction
Audit Objective
The objective of the audit was to determine whether the U.S. Army Corps of Engineers,
Civil Works, Memphis District (USACE Memphis) was planning and implementing the
American Recovery and Reinvestment Act of 2009 (Recovery Act) by meeting the
requirements in the Recovery Act, Office of Management and Budget (OMB)
Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009, and subsequent related guidance. For
this audit, we reviewed the planning, funding, project execution, and tracking and
reporting of two Recovery Act projects at USACE Memphis to determine whether its
efforts complied with the Recovery Act requirements, OMB guidance, and the Federal
Acquisition Regulation (FAR). See Appendix A for a discussion of our scope and
methodology.

Recovery Act Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most affected by the recession;
provide investments to increase economic efficiency through technological advances in
science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also provided unprecedented efforts to ensure the
responsible distribution of funds for the Act’s purposes and to provide transparency and
accountability of expenditures so that the public would know how, when, and where tax
dollars were spent. Further, the Recovery Act stated that the President and the heads of
Federal departments and agencies were to manage and expend the funds made available
in the Act to achieve its purposes, which included commencing expenditures for activities
as quickly as possible, consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act guidance
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the project execution phase is to ensure that contracts
awarded with Recovery Act funds were transparent and competed and contained specific
FAR clauses; that Recovery Act funds were used for authorized purposes; and that
instances of fraud, waste, error, and abuse were mitigated. Review of the tracking and
reporting phase ensures that the recipients’ use of funds was transparent to the public and
that the benefits of the funds were clearly, accurately, and timely reported.




                                            1
Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32 (FAC 2005-32), March 31, 2009, provides policies and
procedures for the Government-wide implementation of the Recovery Act and guidance
on special contract provisions. FAC 2005-32 amended the FAR and provided interim
rules that made FAR solicitation provisions and contract clauses immediately available
for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

   •    buying American construction material,
   •    protecting contractor whistleblowers,
   •    publicizing contract actions,
   •    reporting, and
   •    giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet the requirements for Recovery Act contract
actions by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FBO is a Web-based portal that allows
agency officials to post Federal procurement opportunities and contractors to search and
review those opportunities. FPDS provides a comprehensive Web-based tool for
agencies to report contract actions.

FAR Subpart 5.7, “Publicizing Requirements Under the American Recovery and
Reinvestment Act of 2009,” directs contracting officers to use the Government-wide FBO
Web site (http://www.fbo.gov) to:

    •   identify the action as funded by the Recovery Act,
    •   post pre-award notices for orders exceeding $25,000,
    •   describe supplies in a clear narrative to the general public, and
    •   provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance. OMB has issued 10 memoranda and 1 bulletin to address the
implementation of the Recovery Act. See Appendix B for Recovery Act criteria
and guidance.

USACE Recovery Act-Funded Appropriations
Under the Recovery Act, Congress appropriated $4.6 billion to USACE Civil Works for
Operation and Maintenance, Construction, Mississippi River and Tributaries (MR&T),
Formerly Utilized Sites Remedial Action Program, Investigations, and Regulatory


                                            2
Program. Table 1 provides a breakdown of the amount of Recovery Act funds provided
for each appropriation.

                Table 1. USACE Recovery Act Civil Works Programs
                     Appropriations                         Amount (in billions)
Operation and Maintenance                                               $2.075
Construction                                                            $2.000
Mississippi River and Tributaries                                       $0.375
Formerly Utilized Sites Remedial Action Program                         $0.100
Investigations                                                          $0.025
Regulatory Program                                                      $0.025
   Total                                                                $4.600


USACE Mission and Functions
USACE Civil Works provides public engineering services in peace and war to strengthen
our Nation's security, energize the economy, and reduce risks from disasters.
Specifically, USACE Civil Works (1) contributes to the national welfare and serves the
nation with responsive development and management of the nation's water resources, (2)
protects, restores, and manages the environment, (3) responds to disasters and aid in
recovery, and (4) provides engineering and technical services. This multi-faceted
mission is accomplished through partnerships with other government agencies and
nongovernment organizations. USACE Civil Works executes its programs through eight
regional divisions and 38 district offices. There is a ninth division and three embedded
districts that support operations in Iraq and Afghanistan. This report discusses Recovery
Act projects at USACE Memphis.

Selected Projects at USACE Memphis
We made a nonstatistical selection of two USACE Memphis projects for review:
Mississippi River Revetments and St. Francis River Basin. See Appendix A for specific
sample selection criteria. For the two projects, we reviewed a total of four Recovery Act-
funded contracts, an in-house labor project, and a cooperative agreement between
USACE and the Arkansas State Highway and Transportation Department. USACE
Memphis personnel used Recovery Act MR&T appropriations to fund the work we
reviewed. Specifically, the two projects were:




                                             3
Figure 1. Mississippi River Revetments Project
                                        Mississippi River Revetments: USACE
                                        maintains the proper channel alignment and
                                        protects nearby levees by preventing bank
                                        caving along the Mississippi River by placing
                                        Revetments on the river banks. Revetments are
                                        small concrete blocks joined together by wires
                                        placed on the river bank. USACE Memphis
                                        personnel funded additional Revetments areas
                                        with Recovery Act funds using in-house labor.
                                        In addition, USACE Memphis personnel
                                        awarded a Recovery Act contract to renovate
                                        boat ramps, which are necessary for executing
the Revetments Project on the Mississippi River during low water conditions.

St. Francis River Basin: USACE provides flood control for the rural and urban areas
adjacent to the Mississippi River and within the St. Francis River Basin boundaries.
USACE Memphis personnel awarded a Recovery Act contract to construct relief wells in
the Piggott, Arkansas, sub-area of the St. Francis River. USACE Memphis personnel
stated that the relief wells collect seepage from the levee and redistribute the water to
another area to avoid flooding.

Figure 2. St. Francis River Basin Relief Well
                                                    In addition, we reviewed two Recovery
                                                    Act funded multiple award contracts and
                                                    related task orders for levee resurfacing.
                                                    USACE Memphis personnel stated that
                                                    the levee resurfacing is maintenance
                                                    performed atop the levees on roads used
                                                    for monitoring water levels and the
                                                    condition of the levees. Further, USACE
                                                    provided Recovery Act funding to the
                                                    Arkansas State Highway and
                                                    Transportation Department in the form
                                                    of a cooperative agreement to modify an
                                                    Arkansas State Highway Bridge, a unit
                                                    of the St. Francis Basin project.

USACE Memphis Has Improved Internal Controls
We determined that internal control weaknesses existed as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. USACE Memphis personnel did not synopsize Small Business Administration 8(a)
Business Development Program projects during pre- or post-award and did not indicate in
an FBO pre-solicitation that the contract action used Recovery Act funds. During the
audit, USACE Memphis personnel took action to synopsize all 8(a) projects on the FBO
Web site. For new solicitations, USACE Memphis personnel stated that they will ensure

                                                4
that FBO announcements state that task orders may be issued pursuant to the Recovery
Act.

Further, USACE Memphis personnel did not indicate on four contracts which products or
services they funded under the Recovery Act and did not update their cooperative
agreement between USACE and the Arkansas State Highway and Transportation
Department to accurately reflect that they were using Recovery Act appropriations.
During the audit, USACE Memphis personnel took action to identify which task orders
and contracts are subject to Recovery Act funding and have updated their cooperative
agreement to appropriately reflect the Recovery Act appropriations.

USACE Memphis personnel also did not adequately implement guidance listing the FAR
clauses required for Recovery Act contracts. During the audit, USACE Memphis
personnel stated that they have provided the FAC 2005-32 to all contracting specialists
and continue to review and reinforce the Recovery Act requirements.

In addition, USACE Memphis personnel did not ensure that the Arkansas State Highway
and Transportation Department personnel followed the Recovery Act reporting
requirements for their cooperative agreement funded by the Recovery Act. During the
audit, USACE Memphis personnel provided documentation stating that the USACE
project manager would ensure that Arkansas State Highway and Transportation
Department personnel complied with the Recovery Act Reporting requirements.

Finally, USACE Memphis personnel did not have controls to accurately report project
descriptions and estimates on the USACE Headquarters (HQ) Recovery Act Web site.
During the audit, USACE Memphis personnel provided USACE HQ with the corrected
information and updated the Web site with the correct project descriptions and project
estimates.

We did not make recommendations because USACE Memphis personnel took the
corrective actions stated above.




                                           5
USACE Memphis Generally Met the
Implementation Requirements of the
Recovery Act but Some Improvement Was
Needed
USACE Memphis personnel complied with the Recovery Act planning and funding
requirements. USACE Memphis personnel also complied with project execution
requirements related to competition, small business, and use of firm-fixed-price contracts.
However, in some instances they did not report all required information on the FBO Web
site or include all required language and clauses in the contracts. Further, USACE
Memphis personnel complied with Recovery Act tracking and reporting requirements
that they include FAR Clause 52.204-11, “Recovery Act Reporting Requirements,” and
that they prepare a quality assurance plan for each contract. However, USACE Memphis
personnel did not ensure that the Arkansas State Highway and Transportation Department
personnel followed the Recovery Act reporting requirements for the cooperative
agreement funded by the Recovery Act. Further, USACE Memphis personnel did not
properly report all project descriptions on the USACE HQ Web site.

These deficiencies occurred because USACE Memphis personnel were not aware of
certain Recovery Act transparency requirements and contract requirements. In addition,
USACE Memphis personnel mistakenly overlooked implementing guidance for including
all required Recovery Act FAR clauses. As a result, USACE Memphis personnel did not
fully meet the transparency requirements or solicitation and contract preparation
requirements of the Recovery Act. USACE Memphis personnel have taken action to
correct all the weaknesses that we identified, and we are not recommending any further
actions.

USACE Memphis Personnel Properly Planned Their
Recovery Act Projects
USACE Memphis personnel selected work for the two Recovery Act projects in
accordance with OMB guidance. OMB Memorandum M-09-15, “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009,” April 3, 2009, is
consistent with a memorandum from the President, March 20, 2009, which states that
departments and agencies should support projects that have a demonstrated or potential
ability to achieve long-term public benefits by investing in an improved quality of life,
environmental protection, and other infrastructure that will provide long-term economic
benefits.

USACE Memphis personnel properly selected the Recovery Act projects. For example,
they selected the Revetments Project to stabilize the navigation channel, protect flood
control structures, and increase the flood-carrying capacity of the Mississippi River.
Therefore, this project would achieve long-term public benefits by investing in
infrastructure that would provide long-term economic benefits, improve quality of life,

                                            6
and support environmental protection efforts in accordance with the OMB guidance.
USACE Memphis personnel also selected the St. Francis River Basin project in
accordance with the OMB guidance. Specifically, they used Recovery Act funds to
support flood control for the rural and urban areas adjacent to the Mississippi River and
within the St. Francis River Basin boundaries.

USACE Memphis Personnel Appropriately Distributed
and Designated Recovery Act Funds
USACE Memphis personnel appropriately distributed and designated Recovery Act
funds for the applicable products and services in its accounting system. OMB
Memorandum M-09-15, section 1.2, states that agencies should award and distribute
funds in a prompt, fair, and reasonable manner. USACE Memphis personnel complied
with OMB guidance. Specifically, they stated that USACE Memphis received initial
Recovery Act funding in May 2009 for the two projects, a few months after
implementation of the Recovery Act. As described in the project execution section, they
competitively awarded three of the four contracts. Further, they stated that after the
initial funding, they performed weekly and monthly reviews to determine whether the
contracts needed incremental Recovery Act funds.

OMB Memorandum M-09-15, section 4.3, states that agencies must not co-mingle
Recovery Act funds with other funds. In addition, agencies must establish an internal
fund code within their financial systems and separately track apportionments, allotments,
obligations, and gross outlays of Recovery Act funds. USACE Memphis personnel
complied with this OMB requirement. Specifically, the funding amounts received for the
two projects matched the Funding Authorization Documents and Work Allowances, and
each had a Recovery Act designation. These controls helped USACE Memphis
personnel to appropriately track the Recovery Act funding.

USACE Memphis Personnel Met Some Project Execution
Requirements and Made Needed Improvements
USACE Memphis personnel complied with some of the initial project execution
requirements of the Recovery Act projects. Section 6.1 of OMB Memorandum M-09-15
states that because of the critical importance of the Recovery Act and the funds it will
make available to stimulate the American economy, heightened management attention on
acquisition planning is required to mitigate schedule, cost, and performance risks.
USACE Memphis personnel helped mitigate these risks by awarding all four contracts
reviewed as firm-fixed-price contracts. A fixed-price contract places maximum risk upon
the contractor and full responsibility for all costs and resulting profit or loss, thereby
allowing the Government to lessen its schedule, cost, and performance risks in
accordance with the OMB requirement.

Section 6.1 of OMB Memorandum M-09-15 also states that agencies should obtain
maximum practicable competition and maximize opportunities for small businesses to
compete for agency contracts and to participate as subcontractors. USACE Memphis
personnel met these OMB requirements. Specifically, they competed three of the four

                                             7
contracts and awarded the other contract using the Small Business Administration 8(a)
Business Development Program. In this program, the Small Business Administration
accepts offers on behalf of 8(a) contractors and selects the eligible contractor to complete
the work. USACE Memphis personnel verified that all of the winning contractors for the
four contracts were registered on the Central Contractor Registration Web site and the
Excluded Parties List System did not include them as a debarred contractor. Appendix C
lists the criteria tested and the results of tests.

Recording of Contract Actions Needed Improvement. USACE Memphis contracting
personnel did not always record contract actions in accordance with OMB Memorandum
M-09-15, which describes requirements for reporting Recovery Act-funded actions in
FPDS and publicizing actions on FBO. Specifically, they did not announce the contract
award for boat ramp renovations on the FBO Web site as required by FAR 5.705,
“Publicizing-post-award.” This occurred because USACE Memphis personnel did not
typically synopsize non-Recovery Act 8(a) projects during pre- or post-award and were
not aware that Recovery Act requirements were different. Therefore, they did not meet
the transparency requirements of the Recovery Act. USACE Memphis personnel stated
that they are now synopsizing all 8(a) projects and that they have provided training slides
and guidance to the contracting staff. We did not recommend any further actions because
USACE Memphis personnel addressed this weakness.

In addition, USACE Memphis personnel did not fully comply with the requirements of
FAR 5.704, “Publicizing-preaward.” Specifically, the FBO pre-solicitation for the levee
resurfacing multiple award contract did not indicate that the contract action was funded
by the Recovery Act. This occurred because USACE Memphis personnel incorrectly
concluded that they did not need to include this information because they were not using
this contract vehicle solely for the Recovery Act. Thus, they did not meet the
transparency requirements of the Recovery Act. For new solicitations that could use
Recovery Act funding, USACE Memphis personnel stated that they will ensure that the
FBO announcement states that task orders may be issued pursuant to the Recovery Act.
We did not recommend any further actions because USACE Memphis personnel
addressed this weakness.

Contracts Did Not Always Indicate the Recovery Act-Funded Products or Services.
USACE Memphis personnel did not fully comply with the requirements of FAR
4.1501(a). Specifically, the four Recovery Act contracts did not indicate which products
or services USACE funded under the Recovery Act. USACE Memphis personnel
mistakenly concluded that the single accounting number with the correct Recovery
Act Treasury account symbol and the appropriate Recovery Act clauses were sufficient.
However, for any contract action funded in whole or in part by the Recovery Act, the
FAR specifically requires that the contracting officer indicate that the contract action is
Recovery Act-related and indicate which products or services are Recovery Act-funded.
Without the proper language, there is a risk that the selected contractors would not follow
the Recovery Act reporting requirements because they were unaware that the contracts
were funded with Recovery Act funds. USACE Memphis personnel agreed to take action
to improve contract language and comply with FAR 4.1501(a). Specifically, USACE


                                             8
Memphis personnel began identifying which task orders and contracts were subject to
Recovery Act funding. We did not recommend any further actions because USACE
Memphis personnel addressed this weakness.

In addition, USACE Memphis personnel did not update an ongoing cooperative
agreement between USACE and the Arkansas State Highway and Transportation
Department to modify an Arkansas State Highway Bridge to reflect the use of the
MR&T Recovery Act appropriation. The agreement at the time of our audit listed a non-
Recovery Act appropriation. Without revision, USACE personnel could have difficulty
holding the Arkansas State Highway and Transportation Department accountable for all
Recovery Act requirements. To address this oversight, USACE Memphis personnel
updated the agreement to appropriately reflect the MR&T Recovery Act appropriation.
We did not recommend any further actions because USACE Memphis personnel
addressed this weakness.

Solicitations or Contracts Needed to Include All Required FAR Clauses. USACE
Memphis personnel did not always include all required FAR clauses in the solicitation or
contract. Specifically, they excluded 7 of 24 required FAR clauses from the four
solicitations or contracts. This occurred because they mistakenly overlooked
implementing FAC 2005-32 guidance, which lists the required Recovery Act FAR
clauses. Without certain clauses, there is a risk that auditors would be denied access to
Recovery Act contracts and subcontracts, or the ability to interview contractor and
subcontractor personnel could be limited. Appendix D lists the specific FAR clauses that
USACE Memphis personnel did or did not include.

To address this weakness, USACE Memphis personnel added these clauses through
contract modifications. In addition, they stated that they have provided the FAC 2005-32
to all contracting specialists and continue to review and reinforce the Recovery Act
requirements. We did not recommend any further actions because USACE Memphis
personnel addressed this weakness.

USACE Memphis Personnel Met Some Tracking and
Reporting Requirements and Made Needed
Improvements
USACE Memphis personnel complied with some of the tracking and reporting
requirements of the Recovery Act. Specifically, USACE Memphis contracting personnel
included FAR 52.204-11, “Recovery Act Reporting Requirements,” in all awarded
contracts. FAR 52.204-11 requires contractors for Recovery Act projects to report
project information at http://www.federalreporting.gov. USACE Memphis personnel
also established quality assurance plans, which specified work requiring surveillance and
the method of surveillance for the Recovery Act contracts.

However, USACE Memphis personnel did not ensure that the Arkansas State Highway
and Transportation Department personnel followed the Recovery Act reporting
requirements for the cooperative agreement funded by the Recovery Act. This occurred

                                            9
because although the USACE HQ reporting guidance states that contracting officers are
responsible for ensuring that Recovery Act contractors submit recipient reports and for
reviewing the recipient reports for errors and omissions, it did not address who is
responsible for performing Recovery Act recipient reporting oversight for
cooperative agreements.

Neither the USACE Memphis contracting office nor the project manager was aware that
USACE had the responsibility to ensure that the Arkansas State Highway and
Transportation Department complied with the Recovery Act reporting requirements.
Therefore, USACE Memphis personnel did not meet the transparency requirements of the
Recovery Act. During the audit, they determined that the project manager had the
responsibility to ensure that proper reporting occurred. They provided documentation
stating that the project manager would ensure that Arkansas State Highway and
Transportation Department personnel complied with the Recovery Act reporting
requirements. We did not recommend any further actions because USACE Memphis
personnel addressed this weakness.

In addition, USACE Memphis personnel did not fully meet Recovery Act transparency
requirements because they incorrectly reported a project description for Mississippi River
Revetments on the USACE HQ Web site. Specifically, they provided USACE HQ with
the description “repair upper bank paving, via construction contract, at various locations
on the Mississippi River.” However, the correct description should have referred to the
maintenance work being performed under the Revetments Project. As a result, they did
not provide accurate information to USACE HQ. After we raised this concern, USACE
Memphis personnel provided USACE HQ with the corrected information and updated the
Web site with the correct project descriptions and project estimates. We did not
recommend any further actions because USACE Memphis personnel addressed
this weakness.




                                           10
Appendix A. Scope and Methodology
We conducted this audit from February 2010 through September 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objective.

Our overall audit objective was to evaluate USACE’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
project execution, and tracking and reporting of Recovery Act projects to determine
whether the efforts of USACE Memphis personnel complied with Recovery Act
requirements, OMB guidance, and the FAR. Specifically, we determined whether:

   •   the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (planning);
   •   funds were awarded and distributed in a prompt, fair, and reasonable manner
       (funding);
   •   contracts contained required Recovery Act FAR clauses (project execution); and
   •   recipients’ use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (reporting).

Before selecting DOD Recovery Act projects for audit, the DOD OIG Quantitative
Methods and Analysis Division (QMAD) analyzed all DOD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and
abuse associated with each. Division personnel selected most audit projects and locations
using a modified Delphi technique, which allowed us to quantify the risk based on expert
auditor judgment, and other quantitatively developed risk indicators. Division personnel
used information collected from all projects to update and improve the risk assessment
model. Division personnel selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations.

QMAD used additional predictive analytic techniques for 2 other special cases: (1)
projects performed jointly with State National Guard units in the 50 States, and (2) public
works projects funded directly through USACE. Division personnel factored in workload
volume, proposed costs, geographic districts, and USACE districts and regions in
evaluating the relative risk of problems with oversight and completion.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques provided a basis for logical coverage not only of Recovery Act
dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by USACE.


                                            11
Selected Projects at USACE Memphis
We made a nonstatistical selection of the Mississippi River Revetments and St. Francis
River Basin projects from USACE Memphis using the QMAD high-risk rating. USACE
Memphis personnel used MR&T appropriations for the two projects.

Under the Mississippi River Revetments Project, we selected two items of work for
review. We selected the boat ramp renovation work because USACE Memphis
personnel did not competitively award this contract. We also selected additional
Revetments work, because USACE Memphis used in-house labor instead of a contract
award.

Under the St. Francis River Basin project, we selected four items of work for review
based on the high-dollar award amounts and the variety of work. These four items
included a relief well construction contract, two contracts for levee resurfacing, and a
cooperative agreement to modify an Arkansas State Highway Bridge.

We met with USACE Memphis personnel to evaluate the type of work performed and
funding under the Recovery Act. We reviewed funding documents that interface with the
USACE Financial Management System to trace back to the initial Recovery Act funding.
Further, we reviewed such documentation as solicitations, Federal procurement Web
sites, bid submittals, and contracts to determine whether USACE Memphis personnel
implemented the Recovery Act and OMB requirements.

Use of Computer-Processed Data
We used computer-processed data obtained from FPDS, Excluded Parties List System,
Central Contractor Registration System, and the FBO Web site. To assess the reliability
of the data, we compared USACE Memphis contract information (such as contract
selection criteria or description of supplies and services) to the data contained in these
systems. We did not find any discrepancies between the data sets. We determined that
the computer-processed data were sufficiently reliable for the purposes of this audit.

We also relied on computer-processed data obtained from the Corps of Engineers
Financial Management System and the P2 Oracle Financial Analyzer. To assess the
reliability of the data, we compared source documentation (Funding Authorization
Documents and Work Allowances we received from USACE Memphis personnel) to the
computer-processed data in these systems. We did not find any discrepancies between
the data sets. We determined that the computer-processed data were sufficiently reliable
for the purposes of this audit.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.


                                             12
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list).

   •   U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   •   Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   •   OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009

   •   OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •   White House Memorandum, “Government Contracting,” March 4, 2009

   •   White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   •   OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •   OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •   OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •   OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

   •   OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •   OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009

                                           13
    •    OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
         Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
         Clause 52.204-11,” September 30, 20092

    •    OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
         and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
         of Job Estimates,” December 18, 20092

    •    OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
         and Reinvestment Act,” March 22, 20102

    •    White House Memorandum, “Combating Noncompliance With Recovery Act
         Reporting Requirements,” April 6, 20102

    •    OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,” May 4, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.


                                                     14
Appendix C: Results of Our Tests of Project
Execution
                                  Mississippi River             St. Francis River Basin
                                    Revetments
             Criterion                                               Resurface
                                                                                     Resurface
                                    Boat Ramps        Relief Wells   Levee - Elk
                                                                                    Levee - Tulot
                                                                       Chute
Contract awarded at fixed price
                                         Y                 Y             Y                Y

Competed contract                                          Y             Y                Y
                                         N
Set-aside contract award to
                                         Y                 Y             Y                Y
Small Business/HUBZone
Contractors were registered on
the Central Contractor                   Y                 Y             Y                Y
Registration Web site
Verified contractor was not
listed on the Excluded Parties           Y                 Y             Y                Y
List System

“Y” means it occurred.
“N” means it did not occur.




                                             15
Appendix D: Our Review of Inclusion of FAR
Clauses
                                                                           Mississippi River
                                                                                                     St. Francis River Basin
                     FAR Clauses Required                                    Revetments
                      for the Recovery Act
                                                                                                       Relief        Resurface
                                                                              Boat Ramps
                                                                                                       Wells          Levees1

 FAR 52.203-15
                                                                                    Y                     Y                  N2
 Whistleblower Protection
 FAR 52.204-11
                                                                                    Y                     Y                  Y
 Recovery Act Reporting Requirements
 FAR 52.214-26 Alt I
                                                                                                         N2
 Audit and Records – Sealed Bidding
 FAR 52.215-2 Alt I
                                                                                    N2                                       Y
 Audit and Records – Negotiation
 FAR 52.222-6
                                                                                    Y                     Y                  Y
 Davis-Bacon Act
 FAR 52.225-21
 Required Use of American Iron, Steel, and Manufactured                             Y                     Y                  Y
 Goods – Buy American Act – Projects under $7,443,000
 FAR 52.225-22
 Notice of Required Use of American Iron, Steel, and
                                                                                    N2                    Y                  N2
 Manufactured Goods – Buy American Act – Projects under
 $7,443,000
 FAR 52.225-23
 Required Use of American Iron, Steel, and Manufactured
                                                                                    Y                     Y                  N2
 Goods – Buy American Act – Projects of $7,443,000 or
 more
 FAR 52.225-24
 Notice of Required Use of American Iron, Steel, and
                                                                                                          Y                  N2
 Manufactured Goods – Buy American Act – Projects of
 $7,443,000 or more
 FAR 52.244-6
 Subcontracts for Commercial Items and Commercial                                   Y
 Components
 1
   The “Resurface Levees” column included two task orders that were awarded off a multiple award contract solicitation. We
 reviewed the solicitation for the required FAR clauses.
 2
   We informed USACE Memphis personnel of the FAR clauses that were not included. USACE Memphis personnel added these
 clauses to the contract modifications during the audit.
 “Y” means the contract or base contract appropriately included the clause.
 “N” means the contract or base contract inappropriately excluded the clause.
 A blank cell indicates a clause that does not apply to the contract or base contract.




                                                                16
